IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
COURT OF APPEAL - SECOND DIST.

SECOND APPELLATE DISTRICT
DIVISION a

FILED
Sep 21,2020
DANIEL P. POTTER, Clerk

DLEE

THE PEOPLE,
Plaintiff and Respondent,

Deputy Clerk

B307081
(Super. Ct. No. A647746)
Los Angeles County

v.
CEDRIC C. WESTBROOK,

ORDER

Defendant and Appellant.

THE COURT:
Cedric C. Westbrook was convicted by a jury of second degree murder
with a finding that he used a firearm in the commission of the murder. On
June 27, 1989, Westbrook was sentenced to a term of imprisonment 17 years
to life. The judgment was affirmed in People v. Westbrook (Jan. 23, 1991,
BQ45751) [nonpub. opn.].
On June 18, 2020, Westbrook filed an “independent equitable action for
motion to set-aside the default” pursuant to Code of Civil Procedure section
473(b) [relief from judgment due to mistake, inadvertence, surprise, or
excusable neglect in civil actions]. The motion contended that Westbrook
should have received a sentence for manslaughter instead of second degree
murder because the killing of the victim was unintentional.

SUPREME COURT

NOV 2 4 2020
Court of Appeal, Second Appellate District - No. B307081 J°r9e Navarrete Clerk
S265038

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Plaintiff and Respondent,
v
CEDRIC C. WESTBROOK, Defendant and Appellant.

The petition for review is denied.

■

CANTIL-SAKAUYE
Chief Justice

Additional material
from this filing is
available in the
Clerk's Office.

